of the questioned in-kind studio rental costs, because these costs were funded by non-
CPB sources.

In response to these findings YMI officials disagreed with the questioned costs, stating
that “Youth Radio (YR) applied CPB’s support of Turnstyle in a manner that consistently
met or exceeded the requirements of the Turnstyle contract. YR rigorously adhered to
budget limits and spending classification requirements.” YMI further stated that
personnel costs matched salary amounts in the budget; contractors were occasionally
used in place of staff to meet deliverables; costs for equipment and web streaming were
shared across the organization and therefore correctly classified as Overhead; and
costs recorded in its general ledger exceeded amounts reported for Media & Broadcast
Professionals and Overhead.

YMI’s written response to the draft report is presented in Exhibit J. Based on YMI’s
response, we reduced our questioned costs by $4,997 to $121,439, because the
additional costs identified by YMI qualified as Media/Broadcast Professionals. This
change is reflected in our final finding presentation and accompanying recommendation.

This report presents the conclusions of the Office of Inspector General (OIG). The
findings and recommendations contained in this report do not represent CPB
management’s final position on these matters. CPB management will make final
management decisions on the report’s recommendations in accordance with CPB’s
audit resolution procedures. Based on YMI’s response, we consider recommendations
1 - 4 unresolved and open pending CPB’s final management decision.

We performed our examination in accordance with Government Auditing Standards for
financial audits, except for the scope limitation referred to in our testing of personnel
services. Our scope and methodology are discussed in Exhibit I.


                                   BACKGROUND
      Youth Radio Website

Youth Media International, also known as Youth Radio, is a youth-based non-profit
media outlet based in Oakland, California. Youth Radio’s website states that it
produces digital media and Peabody-award winning journalism that is distributed
nationally. YMI equips youth with skills and support that lead to jobs and education,
partnering 14-24 year-olds with public media industry leaders.

Youth Radio’s mission is to promote young people's intellectual, creative and
professional growth through training and access to media and to produce the highest
quality original media for local and national outlets. Youth Radio students begin with the
Core program, where students spend three months surveying aspects of journalism,
music and multimedia. Upon graduation from the Core program students may enroll in
Youth Radio’s Bridge program where they spend an additional three months

                                            2
specializing in one of the core disciplines. All along students receive support services,
including individual academic advising and case management, and develop a
professional skill that serves them into the future.

Youth Radio has won various awards, including the Edward R. Murrow Award and the
Peabody Award in 2011. Youth Radio programming can be seen and heard on National
Public Radio and the Huffington Post.

       CPB Turnstyle Grant

CPB funded $1,999,160 of $3,793,630 (53 percent) of the Turnstyle budget. The
purpose of the grant was to enable YMI to transition its editorial, production and
distribution model from a broadcast centered model to launch Turnstyle, a new digital,
media driven, multi-platform information service, powered by creative, culturally-diverse
young adults serving as producers, reporters, bloggers, and engaged audiences. The
grant period ran from July 1, 2010 through June 30, 2012.

During our audit period, CPB paid $1,800,000 against this grant, as presented in Exhibit
A, with a $199,160 balance pending at grant closure on July 31, 2012. The final
payment was made on September 28, 2012. The Final Financial Report, dated July 26,
2012, reported total revenues of $4,112,026 and total expenditures of $3,793,964, as
presented in Exhibit B.


                               RESULTS OF REVIEW
We have audited the accompanying YMI Final Financial Report of revenues and
expenses (Exhibit B) for the two-year period ending June 30, 2012. This report is the
responsibility of YMI’s management. Our responsibility is to express an opinion on
these financial reports based on our audit.

Except as discussed in the following paragraph, we conducted our audit in accordance
with Government Auditing Standards for financial audits and auditing standards
generally accepted in the United States. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether the Final Financial
Report is free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the Final Financial Report for
compliance with the grant agreement requirements. An audit also includes assessing
the accounting principles used and significant estimates made by management, as well
as evaluating the overall presentation of the Final Financial Report. We believe that our
audit provides a reasonable basis for our opinion.

YMI did not keep track of individual employee time spent on the Turnstyle project. This
condition created a scope limitation, and we were not able to independently verify the
reasonableness of employee time charged to the project.



                                            3
YMI prepared the accompanying Final Financial Report for the purpose of complying
with the CPB Grant Agreement Terms for the Turnstyle project, Attachment B, Budget,
and Attachment C, Schedule of Deliverables and Disbursements. This report is not
intended to be a complete presentation of YMI’s revenues and expenses.

Based upon our audit we found:

   •   $283,075 in questioned costs ($121,439 applicable to CPB’s proportionate share
       of the grant) relating to personnel services, non-personnel costs misclassified as
       personnel services, direct cost misclassified as Overhead cost, and reported
       costs that exceeded general ledger totals;
   •   $28,134 in questioned in-kind studio rental costs because of the unreasonable
       rate used to calculate rental charges; and
   •   the Final Financial Report did not report all revenues and expenditures incurred
       for the project in accordance with the grant agreement and the Public
       Broadcasting Act.

In our opinion, because of the effects of not being able to verify the hours employees
worked on the Turnstyle project, the questioned costs, and the under-reporting of
expenditures discussed in the preceding paragraphs, the Final Financial Report referred
to above did not present fairly the project’s financial activities in accordance with CPB
grant agreement terms for the two-year period ending June 30, 2012.


                    FINDINGS AND RECOMMENDATIONS

Questioned Costs

Our audit of costs reported against the grant budget identified questionable costs
totaling $283,075. These items include $183,100 of salary costs that exceeded
budgeted rates for various positions; $60,616 of non-personnel costs misclassified as
personnel services; $29,786 of direct costs misclassified as Overhead; and $9,573 in
costs in excess of budget limits. CPB’s proportionate share of the total questioned
costs was $121,439. A Summary of Questioned Costs is presented in Exhibit C.

       Salary Costs

Our audit of salary costs charged to the grant found that YMI did not require employees
assigned to the Turnstyle project to document the actual hours each employee worked
on the project. In lieu of questioning total salary costs for a lack of documentation of
hours worked on the project, we analyzed the salary costs charged to each budgeted
category and compared the hourly rate reported to CPB to the budgeted hourly rate by
job title. We questioned $183,100, the difference based on these rates. CPB’s
proportionate share of these questioned costs totaled $78,550




                                            4
Additionally, we found that multiple employees charged time against each of the
budgeted job titles. Further, YMI’s official job titles did not match many of the job titles
identified in the budget for direct salary costs, except for the Managing Editor position
and Producer type positions. For example, YMI did not have a Partnership Director,
Talent Director, Editor, or Writer listed as a job title on its employee rosters. All of these
positions were listed in the Turnstyle budget. Likewise, for the non-personnel budget
categories (Video Director, Video Assistants, Photographer & Graphic Designer), the
grantee did not have employees with job titles that matched those categories; but YMI
reported employee salaries against those budget categories.

Finally, to perform our analysis we had to reconstruct salary and non-personnel service
costs from notes embedded in the YMI supplied Excel “Mapping Schedule.” These
notes identified the percentage of an employee’s time charged to that budget category
over a six-month time interval. The notes also identified non-personnel service costs
charged to that budget category.

CPB’s Terms and Conditions for Television, Radio and Other Media Production Grants
(November, 2002), Section 4. F. and G. state:

   F. Authorized Uses of CPB Funds. No grantee may apply amounts received
   under a Grant to any purpose other than actual costs incurred in performance of
   the Grant Project in accordance with its Budget. The salary of any employee
   who works on multiple projects must be allocated on the basis of time spent by
   the employee on each project.

   G. Records. A Grantee must keep books, records, and accounts relating to the
   Grant and the Grant Project sufficient to:

              i)     enable CPB to verify all direct costs, overhead, and
                     administrative allocations associated with the Grant Project;
              ii)    disclose fully the amount and use of the proceeds of the Grant,
                     the Total Project Cost, and the amount and nature of any
                     portion of the Total Project Cost supplied by sources other than
                     CPB; and
              iii)   permit an effective audit.

In response to our preliminary observations, YMI stated that there is nothing improper
about its staffing decisions and time-keeping methods; that salary costs matched the
salary amount budgeted in the contract; that primary job titles were irrelevant to filling all
the project roles; that higher priced talent was used to accomplish outcomes more
efficiently, meeting deadlines and using fewer hours; that the budget was met and never
exceeded. YMI also emphasized that CPB accepted its semi-annual reports and
budgets at every phase with follow-up payments and approved the deliverables. It
explained that CPB and YMI shared the understanding that this was a digital start-up
project, requiring teamwork, and that YMI’s top talent be involved at all times, at all
levels.

                                              5
Additionally, YMI stated that it provided the auditors with verification that staff worked on
the project when it provided the IG with additional documentation that supports the time
the employee spent on the project.

We did not agree that the documentation submitted by YMI provided adequate
information to support the number of hours employees charged to the project. The
documentation provided was primarily email correspondence on time exceptions and a
listing of content that employees and contractors developed (Turnstyle Creator List).
CPB’s requirements clearly state that the cost of employees who work on multiple
projects must be allocated on the basis of the time spent by the employee on the
project. YMI did not provide documentation that supported the actual time employees
spent on the project.

       Misclassified Costs

Our reconciliation of the project budget to the final cost report found that $90,402 in
costs were misclassified from budgeted categories that were fully expended to
categories with funding available. These included $60,616 in contracted service costs
(e.g., freelance producers and broadcast professionals) charged to YMI personnel
services budget categories (Exhibit E) and $29,786 in direct program costs for
equipment and web streaming charged to Overhead (Exhibit F). As a result, we
questioned CPB’s share totaling $38,782.

YMI’s classification of these costs as personnel service and Overhead costs avoided
budget change requirements per the terms of its agreement with CPB, which states:

   D. Changes to the Budget. Once a Budget has been approved and a Grant
   Agreement has been signed, the Grantee may make reallocations among Budget
   line items or categories (except those covering “above the line’ salaries,
   equipment, and general administrative/overhead expenses) without CPB’s
   approval so long as no such reallocation involves an increase or decrease in any
   single Budget category in excess of the greater of 25% of such category or
   $5,000.

Budget change approvals are addressed in CPB’s Terms and Conditions for
Television, Radio and Other Media Production Grants (November, 2002), Section 4.
D., which is referenced in the grant agreement.

In response to our preliminary observations, YMI stated that it did not misclassify any
contracted services, that total billing across classes remained within the budget and that
YMI utilized contractors in the place of staff in order to meet immediate deliverables. It
stated that contracting is a common business practice when the work is short term
rather than for the life of a project and the use of experienced contractors is an essential
component of achieving the best results, for the best price, in a timely manner.




                                              6
Further, YMI disputed the finding that direct costs were misclassified as Overhead
costs. It stated that YMI uses a two-step method of allocating both Technical Support
Costs and General Administrative costs. The technical costs were allocated on a line-
by-line basis, which included the general ledger accounts detailed in Exhibit F.

We did not agree with the explanations provided by YMI. YMI reported contracted
services under budget categories that were intended to capture YMI personnel service
costs (under the caption Turnstyle Editorial Staff in the approved budget), per Exhibit E.

The technical support costs were direct program activities (equipment purchases and
web streaming) and not central service costs. Further, contracted services and
Technical Support direct cost budget categories were fully expended, per Exhibit B.
Thus, YMI should have requested CPB’s approval to shift available funds between
categories. CPB’s Terms and Conditions for Television, Radio and Other Media
Production Grants (November, 2002), Section 4. D states that changes to above-the-
line categories require CPB’s approval. No such approval was requested by YMI.

      Costs Reported Exceeded General Ledger Expenses

Our reconciliation of the project’s budget and final cost report shows that costs claimed
for Overhead exceeded amounts recorded in the Turnstyle general ledger by $9,573.
As a result, we questioned $4,107 in CPB costs, as presented in Exhibit G.

CPB’s Terms and Conditions for Television, Radio and Other Media Production Grants
(November, 2002), Section 4. K. state, in pertinent part:

   K. Form of Financial Reports. All financial reports must: …

             ii)    specifically identify and explain any variances in excess of the
                    limits set forth in Section 4(D) hereof (both in dollars and
                    percentages) from the Budget that exist or are expected; …
             iv)    cover all expenditures incurred in performance of the Grant
                    Project, whether or not CPB funds were applied to those
                    expenditures;
             v)     be reconcilable with Grantee’s general ledger accounts.

The Mapping Schedule (audit trail) YMI provided to reconcile costs reported to CPB to
its general ledger identified 30 general ledger accounts that supported Overhead costs
reported to CPB, identified in Exhibit G. In response to our preliminary observations,
YMI stated the total Overhead cost in its report was incorrect the correct total should
have been $589,809 that included $48,125 in Acquisitions/Freelance Producer costs.
We did not accept the additional $48,125 in Acquisitions/Freelance Producer costs
because those are production type expenses and would not qualify as central service
Overhead costs.

                                  *    *    *     *    *

                                            7
To summarize, YMI did not maintain adequate records of cost incurred under the
Turnstyle Project as required by the grant agreement to facilitate an effective audit
(e.g., time records were not prepared by employees to document hours worked on
the Turnstyle project versus other projects or activities, Mapping Schedule did not
adequately trace costs reported to CPB to transaction details in general ledger, and
grantee’s job titles did not match budget line item job titles).

The Turnsytyle project accounting records did not facilitate an effective audit of
employee time charged to the project. We could not independently verify employee
time spent on the Turnstyle project, match personnel costs incurred to job categories
in the approved budget, or verify the appropriateness of direct charges made to the
project from general ledger accounts. General ledger account transaction details
included costs charged directly to the grant (as well as to non-Turnstyle projects),
charges claimed as Overhead in the Mapping Schedule, and charges included in
Account 9200 (allowable Overhead Allocation).

The Mapping Schedule provided by YMI to trace salary transactions from general ledger
accounts to the final CPB report by budgeted line items was not adequate to verify costs
charged to the grant and facilitate an effective audit as required by the grant agreement.
We had to reconstruct salary and non-personnel cost charges from notes in an Excel
spreadsheet that accumulated charges by budgetary categories in six-month intervals.
The notes identified the percentage of time an individual employee’s time/salary was
charged against that budgeted line item, as well as a contractor’s time or costs.
However, the audit trail ended with the note in the Mapping Schedule for contractor
costs, because we could not trace these costs back to specific transactions in the
general ledger.

Finally, the reporting of non-personnel service contractor costs under Turnstyle
personnel services budget categories and direct program costs (equipment and web
streaming) as Overhead allowed YMI to claim these costs without seeking CPB’s
approval of budget increases to categories where these costs should have been
reported.

As a result, we questioned total costs of $283,075 and CPB’s proportionate share of
these costs totaled $121,439, as presented in Exhibit C.

         Recommendations

We recommend that CPB management:

1) recover $121,439 in questioned costs: and

2) ensure future agreements facilitate an effective audit by requiring that:

   a) employee project time records be maintained to support salary costs claimed;



                                             8
   b) reconciling worksheets be prepared to support reported costs by budget category
      traceable to specific general ledger accounts and transaction level details for
      both personnel services and non-personnel service costs; and
   c) personnel services budget categories identify grantee employees who will charge
      time to that position, unless the grantee’s job titles match the personnel services
      budget categories.

         Management Response

YMI’s response did not agree with this finding and recommendation 1. In response to
the salary cost finding, YMI commented on its staff time-keeping practices and the use
of job tiles and hourly rates to question salary costs. YMI said it utilized a percentage
method of time tracking for each employee and project. It said this method has been
widely accepted in government and the nonprofit industry and referred to audits of labor
allocation by the National Science Foundation (NSF). Regarding the misclassified
questioned costs, YMI’s response commented that its practice of classifying contractor
costs as salary costs was a common, practical, real-world business practice. Regarding
misclassified equipment and web streaming costs charged as overhead, YMI stated that
it used a two-step method of allocating technical support costs and general
administrative costs. Regarding Overhead costs reported in excess of general ledger
expenses, YMI presented two new general ledger accounts, Building Repair
Consultants and Development Consultants [$523 and $39,588] to support its position
that it had incurred more Overhead costs than it had reported to CPB. YMI did not
respond to recommendations 2a – 2c that were directed to CPB.

         OIG Review and Comment

Based on YMI’s response, we reduced our questioned costs by $4,977 to $121,439
related to costs questioned for the budget category New Media/Broadcast
Professionals. These changes were made to the final finding. Recommendations 1 and
2a - 2c remain unresolved pending CPB management decision resolving these
recommendations.

YMI’s response did not introduce any new information to change the remaining
questioned costs. As previously explained in the body of the finding, the documentation
provided by YMI to support employees’ time spent on the project was not adequate to
enable us to independently attest to its accuracy.. YMI’s response also referred to NSF
audits of its labor allocation, but these audits were not shared with us. Regardless,
YMI’s labor allocation between projects was not the basis we used to question salary
costs.

We questioned the salary costs based on the percentage of time that higher salaried
employees’ costs were charged to budgeted salary categories. We disagree with YMI’s
assertion that budgeted salaries cannot be reduced to an hourly rate under CPB’s grant
agreement terms. CPB’s agreement called for a level of effort in time at a given rate.



                                            9
That was the basis we used to calculate questioned personnel service costs, when
higher salaried employees’ time was charged to the budgeted salary categories.

Regarding claiming equipment and web streaming as Overhead expenses these types
of expenses were budgeted as direct program expenses and were therefore not eligible
to be claimed as Overhead. Finally, regarding the inclusion of Building Repair
Consultants and Development Consultants as Overhead expenses, these general
ledger accounts were not identified as Overhead accounts on YMI’s Mapping Schedule
provided to us to reconcile its final report to its general ledger.

Studio Rental Charges for In-kind Services were not Reasonable

Our review of in-kind studio rental charges (rental of one studio and two edit booths)
found that the charges were not reasonable and represent over 78.4% of YMI total
facility costs incurred during the 24-month grant period. While in-kind services are paid
from non-CPB sources, the studio rental budget of $502,400 represents 13.2 percent of
the total project budget of $3,793,631.

YMI has one production studio, eight edit booths and two webcast rooms in its facilities.
The production studio is 96 square feet and the two edit booths total 70 square feet.
The facilities identified for rental in the budget total only 166 square feet of the building’s
19,760 square feet (less than one percent of the building space). Studio rental costs
were budgeted based on an hourly usage rate, as discussed further below. The amount
of studio rental costs reported exceeded the allocation basis used by YMI to charge
other allocated costs under the grant. YMI’s allocations were based on salary
allocations made between projects and other activities by funding sources. As a result,
we questioned $28,134 in reported in-kind costs as calculated in Exhibit H, using the
ratio of total Turnstyle salaries and wages to total YMI salaries and wages.

CPB’s Terms and Conditions for Television, Radio and Other Media Production Grants
(November, 2002), Section 4.G. Records requires the grantee to keep records to enable
CPB to verify all direct costs. Records related to the use of the studio and edit booths
needed to be maintained to verify the use of the facilities to permit an effective audit.

While YMI’s grant budget specifies that CPB was paying for the rental of only one studio
and two editing booths, the basis for the charges represent 78% of the grantee’s total
facility cost for the 24-month grant period. The grantee’s methodology for claiming
these costs was based on an hourly rental charge for the main studio ($100 per hour)
and two edit booths ($60 per hour) at 20 hours per week. YMI could not provide any
logs of studio and edit booth usage to permit us to independently verify the number of
hours employees actually used these facilities under the Turnstyle project.

YMI management stated that the questioned costs were incorrectly calculated by OIG;
that the incorrect methodology was used to calculate the overall labor cost. YMI
recalculated that cost using a reduced labor cost, which resulted in a higher cost ratio,



                                              10
and concluded that facility costs were under-reported; therefore no in-kind costs should
be questioned.

YMI’s response introduced the methodology used by the NSF in its Nonprofit Rate
Agreement. YMI did not use the NSF agreement for the Turnstyle project. YMI used a
monthly salary allocation, which allocated salary across all funding sources and
program activities, as previously discussed. We took the overall 24-month period to
calculate an allocation rate, instead of the monthly rate YMI used. As a result, we still
question $28,134 in reported in-kind costs, as calculated in Exhibit H.

         Recommendation

3) We recommend that CPB management clarify in future grant agreements both how
   in-kind service costs need to be documented and why the valuation of those charges
   is reasonable.

         Management Response

YMI’s response stated: “YR has not responded in detail to the OIG’s assertion that
studio rental charges for in-kind service were not reasonable because the OIG does not
recommend cost recovery from YR.”

         OIG Review and Comment

Based on YMI’s response to this finding, we consider recommendation 3 unresolved
and open pending CPB’s management decision resolving this recommendation.

Financial Reporting

YMI did not report all the Turnstyle revenues and expenses recorded in the general
ledger in the Final Financial Report submitted to CPB as required by the grant
agreement and the Public Broadcasting Act. It reported only expenditures that matched
the budgeted limits. YMI’s Final Financial Report reported total revenues of $4,112,027
and total expenses of $3,793,964. The CPB approved budget totaled $3,793,632. The
Turnstyle general ledger recorded revenues of $4,387,800 and expenses of $4,652,668
for the project.

CPB’s Terms and Conditions for Television, Radio and Other Media Production Grants
(November, 2002), Section 4. K. Form of Financial Reports requires the grantee to
report all expenditures incurred under the grant project, whether or not CPB funds were
used to pay for those expenditures and be reconcilable with grantee’s general ledger.
Further, the budget in the grant agreement requires the reporting of both project
revenues and expenses.

YMI officials advised us that contrary to the agreement, CPB officials instructed them to
report Turnstyle costs incurred only up to the budget limits in its financial reports

                                            11
submitted to CPB. Further, YMI said that over the two years of the award, it submitted
four semi-annual reports on four different reporting periods. Each of the reports showed
no variance to the budget. Because it received payments after each semi-annual report
submission, YMI concluded that it satisfied all the deliverables for each period, including
its operational and reporting methodology. All four reports were accepted by the CPB
officials with follow-up payments. We confirmed with CPB officials that they instructed
YMI to report only costs only up to the budget limits.

To have a true accounting of all project revenues and expenditures, CPB officials
should have instructed the grantee to follow the grant agreement requirements and
report all costs, variances from the budget, and be reconcilable to the general ledger.
This would have facilitated our audit in reconciling the final reported costs to the general
ledger accounts. Further, complete project accounting provides information that can be
useful in future planning of similar projects or revising budgets in multiple year projects.

         Recommendation

4) We recommend that CPB require YMI to comply with grant agreement financial
   reporting requirements by submitting a revised final report that reflects all Turnstyle
   project revenues and expenditures reconcilable to the general ledger.

         Management Response

YMI’s response stated: “YR has not responded in detail to the OIG’s concerns that CPB
should require an accounting of all project expenses, including those that extend
beyond the scope of the CPB-supported project expenses. This would require a
change in CPB’s contract requirements and that is a decision outside the control of YR.”

         OIG Review and Comment

Based on YMI’s response to this finding, consider recommendation 4 unresolved and
open pending CPB’s management decision on this recommendation. The grant
agreement terms required YMI to report all expenditures incurred under the grant
project.




                                             12
                                                                              Exhibit A

             CPB Payments - Turnstyle Contract # 13375
                 July 23, 2010 -September 28, 2012

      Payment Date             Amount                       Description
         7/23/2010                $600,000    Initial grant payment FY 2010
          3/8/2011                $400,000    Interim FY 2011 grant payment
         4/21/2011                $100,000    Interim FY 2011 grant payment
        10/11/2011                $350,000    Interim grant payment FY 2011
         4/11/2012                $350,000    Interim grant payment FY 2012
Total Paid through June 2012     $1,800,000


         9/28/2012                $199,160    Final grant payment FY 2012



         Total Paid              $1,999,160




                                    13
                                                                                             Exhibit B

                                              Final Financial Report
                                           July 1, 2010 – June 30, 2012

                  Budget Categories                     Budget           Final Report      Under/(Over)
Revenue
CPB                                                         $1,999,160        $1,800,000          $199,160
Grantee Guarantee                                           $1,244,310        $1,761,806         ($517,496)
Grantee Guarantee                                            $550,160           $550,220              ($60)
                      Total Revenue                         $3,793,630        $4,112,026         ($318,396)


Expenses
Turnstyle Editorial Staff
Managing Editor                                              $160,000           $160,000                  $0
Partnership Director                                         $120,000           $119,996                  $4
Talent Director                                               $70,000            $70,000                  $0
Editor producers- level 2( 4 total)                          $224,000           $224,000                  $0
Writers (2 FTE)                                              $120,000           $120,001               ($1)
                        Sub-Total                            $694,000           $693,997                  $3
Benefits @ 28%                                               $194,320           $194,319                  $1
                  Total Editorial Staff                      $888,320           $888,316                  $4


Video and Production Team
Video Director                                               $160,000           $160,000                  $0
Video Assistant (2)                                          $120,000           $120,001               ($1)
Photographer                                                 $100,000           $100,000                  $0
         Total Video and Production Team                     $380,000           $380,001               ($1)


Design Team/graphic Design                                   $100,000           $100,000
        Total Design Team/graphic Design                     $100,000           $100,000                  $0


Business Development
Audience Building                                            $100,000            $99,988               $12
Business Development                                         $100,000           $100,053              ($53)
Marketing/Advertising                                         $86,000            $86,000                  $0
            Total Business Development                       $286,000           $286,041              ($41)


Online Editorial

New Media/Broadcast professionals ($50/hr x367 hrs
annually)                                                     $36,700            $36,700                  $0
                  Total Online Editorial                      $36,700            $36,700                  $0

                                                       14
                                                                                 Exhibit B (continued)

                                                  Final Financial Report
                                               July 1, 2010 – June 30, 2012

                       Budget Categories                          Budget        Final Report      Under/(Over)


Production Assistance
Student Reporters/Intern/Editors- various                           $130,000           $129,999                  $1
                  Total Production Assistance                       $130,000           $129,999                  $1


Talent Development Fund
                                                                    $170,000           $170,000                  $0


Technical Support
Tech Support                                                        $140,000           $140,089              ($89)
Web Development                                                     $300,000           $300,000                  $0
Technical/ Engineering Consultant                                    $50,000            $50,000                  $0
                    Total Technical Support                         $490,000           $490,089              ($89)


Travel
Travel transportation and Hotel Cost                                 $65,000            $65,052              ($52)
                             Total Travel                            $65,000            $65,052              ($52)


Other Project Expenses
Administrative Assistant                                             $80,000            $80,110             ($110)
Studio Rental                                                       $502,400           $502,400                  $0
Communications/ISDN Line/Internet/Web                                $24,000            $24,000                  $0
Equipment/Program Supplies                                           $90,000            $90,000                  $0
                 Total Other Project Expenses                       $696,400           $696,510             ($110)



                           Total Direct Cost                       $3,242,420        $3,242,708             ($287)



Overhead Cost (17% of Direct Cost)                                  $551,211           $551,257              ($46)



                            Total Expense                          $3,793,631        $3,793,964             ($333)




                                                             15
                                                                                           Exhibit C

                                    Summary of Questioned Costs

                                                          Total
                                                        Questioned                     CPB's Questioned
           Nature of Questioned Costs                     Costs         CPB's Ratio*        Costs
Salary costs in excess of budgeted rates for position        $183,100          42.9%             $78,550

Non-personnel costs misclassified as personnel
services                                                      $60,616          42.9%             $26,004
Direct costs misclassified as Overhead                        $29,786          42.9%             $12,778
Costs reported exceed general ledger totals                    $9,573          42.9%              $4,107

                                                                                                $121,439
                Questioned Costs                             $283,075



* Ratio CPB Expenses to Total Turnstyle Expenses:
      General ledger recorded CPB expenses                $1,999,160
   General ledger recorded Turnstyle expenses             $4,654,837


                    CPB Ratio                                  42.9%




                                                        16
                                                                                Exhibit D

   Personnel Service Costs Claimed in Excess of Budget Rates

                                                                        Questioned
                                          Calculated                     Cost by
                                         from Budget     Claimed in       Budget
          Budget Category                Hourly Rate    Final Report     Category
PERSONNEL SERVICE COSTS:
Managing Editor:                             $140,578        $160,000       $19,422


Talent Director:                              $43,400         $70,000       $26,600


Editors/Producers - Level 2 (4 total):       $129,431        $224,000       $94,569


Writers (2 FTE):                              $59,237        $120,001       $60,764

TOTAL PERSONNEL SERVICE
COSTS                                        $372,646        $574,000      $201,355

NONPERSONNEL SERVICE
COSTS:
Photographer:                                 $85,918        $100,000       $14,082


Audience Building:                            $84,421         $99,988       $15,567


Tech Support:                                 $99,274        $105,199        $5,925


Admin Assistant:                              $73,323         $80,110        $6,787

TOTAL NON-PERSONNEL
SERVICE COSTS                                $342,936        $385,297       $42,361


           TOTAL COSTS                       $715,582        $959,298      $243,716


 Less: Exhibit E Questioned Costs                                           $60,616
 Adjusted Net Questioned Salary
               Costs                                                       $183,100

Ratio CPB Costs to Total Turnsytle
Costs                                                                        42.9%


CPB Questioned Salary Costs                                                 $78,550




                                             17
                                                                                            Exhibit E

        Non-Personnel Service Costs Reported as Personnel Services
                     Misclassified Questioned Costs

                                              Claimed in    Misclassified
                                                 Final          Cost
              Budget Category                   Report      Questioned             Comments
 Managing Editor
 Contractor A (7/1/10 to 12/31/10)                $8,730           $8,730   not on employee roster



 Editors/Producers
 Contractor B (1/1/11-6/30/11)                      $452             $452   not on employee roster
 Unassigned Amount (1/1/11-6/30/11)                 $585             $585


 Freelance producers (7/1/11-12/31/11)           $10,140          $10,140


 Unassigned Amount (1/1/12-6/30/12)                 $544             $544
 Unassigned Amount (1/1/12-6/30/12)                  $96              $96



 Writers (2 FTE)
 Freelance producers (1/1/11- 6/30/11)        unspecified    unspecified
 Contractor C at 3 months (1/1/11-March
 2011)                                        unspecified    unspecified
 60% Contractor B (1/1/11- 6/30/11)           unspecified    unspecified    not on employee roster
                   Sub-Total                     $29,020          $29,020


 Broadcast professional (1/11-12/31/11)           $2,850           $2,850
 contractor B (7/1/11-12/31/11)                   $8,200           $8,200   not on employee roster


                   Total Cost                    $60,617          $60,617


  Ratio CPB Costs to Total Turnsytle Costs                          42.9%


           CPB Questioned Costs                                   $26,004



Source:
Final Financial Report schedule provided by Youth Media CPB - TurnStyle Budget Report 06 30 2012.xls
(source of costs reported by budget category taken from hidden notes in Excel worksheet)




                                                   18
                                                                            Exhibit F

              Misclassified Costs Claimed as Overhead
                Instead of Direct by Budget Category

          General Ledger (G/L) Accounts        Recorded G/L for Turnstyle
8111-1 Computer Hardware (under $1,000)                            $16,331


8117 Equipment (under $1,000)                                      $11,677


8630 Web Streaming                                                  $1,778


             Total Questioned Costs                                $29,786


    Ratio CPB Costs to Total Turnstyle Costs                        42.9%


             CPB Questioned Costs                                  $12,778




Source:
Mapping Schedule provided by grantee




                                          19
                                                                                   Exhibit G

                      Reported Costs Exceeding General Ledger Totals
                                   by Budget Category

                                          Recorded G/L
        General Ledger Accounts             Turnstyle          Reported to CPB    Questioned Costs


Overhead:
8111-1 Computer Hardware (under $1,000)            $16,332
8113 DVD/Videos                                      $162
8114 Engineering Supplies                           $1,156
8116 Program supplies                               $7,066
8117 Equip (under $1,000)                          $11,677
8118 Web Software & material                        $4,448
8120 Food for Classes                               $6,404
8220 property Tax                                   $9,433
8250 Security                                      $12,443
8430 Legal Fees                                     $7,189
8440 Conference Fees                                $9,626
8450 Job Postings                                   $2,758
8460 Payroll Fees                                  $17,662
8490 Fees-Misc                                     $10,175
8620 Telephone                                      $2,020
8630 Web Streaming                                  $1,778
8640 ISDN Line                                      $7,146
8810 Awards                                         $8,845
8820 Gifts/Stewardship                              $2,562
8930 Marketing                                      $4,327
8931 Trademarking                                    $275
8940 Youth Incentives                               $1,569
8950 Staff Development                              $1,556
8960 Non Personnel Insurance                       $11,204
8980 Equipment Maintenance                           $334
9110 Finance Charges/Bank Fees                      $1,107
9120 Licenses & permits                              $752
9980 Misc Expenses                                   $300
9000 Other Expenses - other                              $70
9200 Allowable Overhead Allocation                $381,308


                Total Overhead                    $541,684             $551,257             $9,573




                                             20
                                                                     Exhibit G (continued)


                Reported Costs Exceeding General Ledger Totals
                             by Budget Category
                                                  Recorded G/L
        General Ledger Accounts                     Turnstyle     Reported to CPB   Questioned Costs


           Total Questioned Costs                                                             $9,573
  Ratio CPB Costs to Total Turnstyle Costs                                                     42.9%
           CPB Questioned Costs                                                               $4,107


Sources:
Mapping Schedule provided by grantee and Final Financial Report




                                                      21
                                                                                           Exhibit H

     Analysis of Rental Costs Charged to Turnstyle Project as In-kind Costs

                 General Ledger Accounts                        Turnstyle G/L            Youth Media G/L
Rental Costs:
8210 Building Repair & Maint. Supplies                                      $48,784                  $68,876
8230 Loan Interest                                                         $107,782                 $149,245
8260 Utilities                                                              $81,223                 $107,943
8270 Studio Rental                                                              $7,946                $7,946
8910 Depreciation/Amortization                                             $258,808                 $309,755


                     Total Rental Costs                                    $504,543                 $643,765


                     Total Reported CPB                                    $502,400
                 Difference in Allocation Basis                                  5.6%



Facility Costs Claimed in Excess of Salary Allocation                       $28,134


Ratio Turnstyle Rental Costs Claimed to Total Facility Costs:
                 Total Turnstyle Facility Costs                            $504,543
      Total Youth Media International Facility Costs                       $643,765
                             Ratio                                                                     78.4%


Ratio Turnstyle Salary Costs to Total Salary Costs:
                 Total Turnstyle Salary Costs                            $2,493,389
      Total Youth Media International Salary Costs                       $3,426,023
                             Ratio                                                                     72.8%
Difference in Rate Claimed versus Salary Allocation                                                        5.6%


Salary Information:


                 General Ledger Accounts                        Turnstyle G/L            Youth Media G/L
Salary Costs:
7110 Salaried Employees                                                  $2,077,898               $2,689,809
7120 Hourly Employees                                                      $158,892                 $343,910
7130 Project Associates                                                    $131,279                 $210,877
7140 Interns                                                               $125,320                 $181,427
                     Total Salary Costs                                  $2,493,389               $3,426,023


Sources:
Mapping Schedule provided by grantee and Youth Media General Ledger.


                                                       22
                                                                                Exhibit I

                                Scope and Methodology

We performed an audit of YMI’s compliance with grant spending and financial reporting
requirements as specified in the budget contained in Attachments B and C to the grant
agreement. The scope of the audit included reviews and tests of the fair reporting of
revenues and expenditures in accordance with grant terms for the period July 1, 2010 –
June 30, 2012.

YMI did not keep track of individual employee time spent on the Turnstyle project to
enable us to independently verify the reasonableness of the time charged to the project,
creating a scope limitation in the conduct of our audit testing of personnel service costs.
We requested to interview a sample of employees to determine the reasonableness of
the allocations; however, the grantee wanted its attorney to sit in on the interviews. We
did not conduct these interviews because we felt that the attorney’s presence may
inhibit the employee from speaking candidly. As a result, we were not able to fully
evaluate the reasonableness of the personnel services reported.

Except for the scope limitation referred to above, we performed our audit in accordance
with the Government Auditing Standards, July 2007 Revision, for financial audits. Our
fieldwork was performed from October 22-26, 2012.

We judgmentally selected samples of revenues and expenditures reported on the Final
Financial Report submitted to CPB, for the above referenced period. We tested
revenues totaling $2,087,186 of the $2,285,807 non-CPB revenues reported. We
tested direct and indirect expenses that appeared to be incorrectly categorized totaling
$43,961 of $4,652,667. We analyzed $100,840 of the $381,308 of expenses charged to
allowable Overhead and $174,528 of $504,554 of Studio Rental expenses to determine
if expenses were properly allocated to the Turnstyle project. We reconciled hours
recorded on the timesheets to total hours paid to determine if employees completed
timesheet and were paid for actual hours recorded on the time sheets.

We traced revenues to underlying agreements and expenditures to underlying
supporting documents. We also reconciled the Final Financial Report to the general
ledger and compared reported expenditures against budget categories for compliance
with grant requirements for exceeding budgetary limits.

We gained an understanding of YMI’s internal controls over the preparation of the final
report submitted to CPB and of cash receipts as part of our overall risk assessment.
We used this understanding to plan our audit work and select those areas that posed
the greatest risk to the accurate reporting of revenues and expenditures.




                                             23
